ORIiGPAL
No.

9A
A:11 -'J/

At A Ap.

A' vy J u V;

Supreme Court, U.S.
FILED

OCT 0 3 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITES STATES

CEZARY WOJCIK
Petitioner,
VS.
COOK COUNTY et, al,
Respondent,

ON THE PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS SEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

CEZARY WOJCIK
1634 N MILWAUKEE
CHICAGO, 1L 60647
TEL: 773 414 0471
Email: anna.anna909@yahoo.com
PROSE

I.

Question Presented

1. Did cook county defendants violate disabled Cezary Wojcik Constitutional
Rights to provide disable person proper medical care-treatment with
medication, violating Amendment VIII supported by Amendment XIV, statue
42 U.S. Code& 12102. statue ADA U.S.C. & 12101. statue 42 U.S.C. &&
12131-12165. Statue 18 U.S.C.2340A. statue Disabled Prisoners’ Rights.
statue Rights of Inmates. Estelle v. Gamble. 429 U.S. 97 (19761.
Michael Parish, at v. Sheriff of Cook County and Cook County. Illinois case
07-CV-4369?

2. Did defendant fulfill County Judge sentencing order violating statue 42U.S.C.
Code & 12102. Statue ADA 42 U.S.C & 12101. 42 U.S.C. && 12131-12165.
violating Amendment VIII supported bv Amendment XIV?

3. Were there Bias in favor of defendants from judges of United States Court of
Appeals for the Seven Circuit Chicago and Unites States District Court for the
Northern District of Illinois, also violating constitutional rights of Amendment
VII supported bv Amendment XIV with their decision, when in original
complain Plaintiff Attorney at that time requested Jury Trial?

i

II.

Table of Contents

I.

Question Presented

II.

Table of Contents

III.

Table of Authorities

111

IV.

Petition for Writ of Certiorari

1

V.

Opinion Below

1

VI.

Jurisdiction

1

1

n

VII. Constitutional Provisions Involved

1

VIII. Statement of the Case

2

IX.

Reasons for Granting the Writ

7

X.

Conclusion

11

XI.

Appendix

12

ii

III. Table of Authorities
Cases
i,4,5,6

Estelle v. Gamble. 429 U.S. 97 (1976)

Michael Parish, at v. Sheriff of Cook County and Cook County. Illinois case
i,7

07-CV-4369

Statutes
1,2

42 U.S. Code § 12102

1,3,4,5,6

42 U.S.C. § 12101

i,5,6

42 U.S.C. $§ 12131-12165

i,4,5

08 U.S.C. 2340A)
Prisoner's Rights

4,6

Disabled Prisoners’ Rights

i,4
1,5,6

Rights of Inmates

6

U.S Dept. Of Justice Article

Constitutional Provisions
United States Constitution, Amendment VII.
United States Constitution, Amendment VIII,
United States Constitution, Amendment XIV

iii

7,8,9
........i,4,5,6
1,4,5,6,7,8,9

IV. Petition for Writ of Certiorari
Cezary Wojcik respectfully petitions this court for a writ of certiorari to review the
judgment of the Court of Appeals for the Seventh Circuit.

V.

Opinion Below

The United State Court of Appeals for the Seventh Circuit produces Notice of
Issuance of Mandate in May-26-2020 (App 1). In addition, United Court of
Appeals issue order denying Cezary Wojciks’ direct appeal on May-15-2020. That
order is attached at Appendix (App 2).

VI. Jurisdiction
Mr. Wojcik’s petition for rehearing was denied on May 15, 2020. Mr. Wojcik
invokes this Court’s jurisdiction under 28 U.S.C 1254 (1), having timely filed this
petition for a writ of certiorari of the United States Court of the apples For the
Seventh Circuit.

VII. Constitutional Provisions Involved
United States Constitution, Amendment VII
United States Constitution, Amendment VIII
United States Constitution, Amendment XIV

l

VIII. Statement of the Case
One of the many challenges for the field of corrections is the development of
effective strategies to addr ess the unique requirements of offenders with special
health needs, ranging from appropriate housing to effective release planning. In
order to use both the physical plant and human resources optimally, it is important
to develop cost-effective, less restrictive strategies that mainstream offenders with
special health needs. It is necessary to identify the many categories of patients with
special health needs. These categories include: elderly offenders, the terminally ill,
those with communicable and/or chronic diseases, physically handicapped,
mentally/developmentally disabled, and blind/deaf offenders. Special medical
housing is seen as an effective approach in managing offenders with special health
needs.
On June 27th 2013, Cook County Judge by agreement between disables plaintiff
attorney Kent R Brody and county prosecutor severed time ten days in CCJ
Cermak Memorial Hospital. According to ADA code (42 U.S.C. $ 121021 the
judge also admitted in the case that Cezaiy Wojcik is disabled and had a serious
medical issue, also deliberately providing both names A/K/A Anthony Avado to
better uses medical records for plaintiff needs. Indeed, plaintiffs attorney admitted
that Anthony Avado A/K/A Cezary Wojcik to be assigned to the Cermak

2

Memorial Hospital for his period of incarceration. Plaintiff Attorney also advice to
bring all medication needed for the time of proceeding, also explained that medical
treatment as well medication plaintiff will get in CCJ Cermak Memorial Hospital.
Plaintiffs Attorney Kent R. Brody asked the judge for a copy of the order to hand
over to Anthony Avado AfKJA Cezary Wojcik for the record, to show in CCJ
arrival and future processing that everyone must obey judge’s orders. After
assigning the order, the Judge gave a copy to the attorney and plaintiff received
own copy. Deputy Steve Kaloudis, who was present all the time in the court room,
also retrieved a full copy of the Judge's orders, with both names of the plaintiff.
When sheriff S. Kaloudis started intake process, without Judge View and
attorney, plaintiff didn’t have absolute any influence on coming deliberate terrors
by sheriffs and Cook County employee’s. At the same time sheriff is obligated by
constitution and other department of law and us codes to assist disable plaintiff,
with necessary medical needs (like wheel chair, cane for walk, transportation car
etc.;) witch never happened by plaintiff request, statues ADA (42 U.S.C. § 12101).
Deputy S. Kaloudis deliberately took all of the copies of the Judge orders,
including the plaintiffs copy, placed them in a plastic bag, and sealed the bag
which was a disobedience of the Judge orders. In addition, deputy sheriff took
away plaintiff medication. Plaintiff was at the time emotionally distress also was

3

very week, to help himself trying taking the medication as well explaining his
condition to sheriff, Estelle v. Gamble. 429 U.S. 97 (1976).
By sheriff denying action plaintiff was discriminated, terrorized and torture
mentally also physically, statues ADA (42 U.S.C. § 12101k statue (18 U.S.C.
2340A) relate to Amendment VIII supported by Amendment XIV. It was deputy
S. Kaloudis’s premeditated action to deliberately remove the copies of the order
from the plaintiffs possession and medication.
The plaintiff was trying to convince deputy S. Kaloudis to obey and adopt
Judge Sullivan’s orders to leave all signed documents with the plaintiff for further
processing in CCJ. However, deputy S. Kaloudis insisted that he would not do so,
by torture confusing plaintiff, statues (18 U.S.C. 2340A). Deputy S. Kaloudis
stated, “The court belongs to Judge and his rules, but the holding cell is my house
and my rules.” In addition, the deputy was sinister to the plaintiff and belligerent
by stating, “Shut the fuck up!” The plaintiff was terrorized and intimidated but was
subsequently urging deputy to provide both names Anthony Avado and Cezary
Wojcik (what the Judge ordered during proceeding), also was begging for medical
attention (medication) with sheriff contrary rejection, statues Prisoner's Rights.
statue Disabled prisoners’ rights are protected under §504 of the Rehabilitation Act
of 1973. Estelle v. Gamble. 429 U.S. 97 (1976).

4

Deputy S. Kaloudis disregarded and denied using both names. Instead
deputy S. Kaloudis used only one name, Anthony Avado. Proof shows that all
sheriffs’ documents erased the name Cezary Wojcik and was not used. At that time
sheriffs start torture mentally plaintiff not providing with special medical needs to
his disability having absolute power over plaintiff, statues (18 U.S.C. 2340A1
relate to Amendment VIII supported by Amendment XIV, Estelle v. Gamble, 429
U.S. 97 (1976).
Consequently other deputies and Cook County employees were disquietingly not
upholding the judge orders of using both names, to help obtain disable plaintiffs
medical records. Ongoing process plaintiff informs other sheriffs that he is disable
person and need help. Sheriffs stated they don’t care and justify that plaintiff don’t
need that, by discriminate him, statues ADA (42 U.S.C. § 12101)
(42 U.S.C. §§ 12131-12165). statues Rights of Inmates, relate to Amendment VIII
supported by Amendment XIV.
After fingerprinting plaintiff asked sheriffs where they hold court order
documents, what was placed in plastic bag, and how he can retrieve them? The
answer was that sealed bag with inmate belongings will arrive in CCJ facility up to
three days. Indeed that’s what plaintiff attorney affirm after releasing from CCJ.
Plaintiff was devastated waiting with other inmates for bus to be transported to
CCJ. Plaintiff was try to explain and once more begging sheriffs to get medical
5

attention and wheelchair for transportation (request was denied), statues Prisoner's
Rights, instead sheriffs handcuffs him with other inmates and they threw to bus,
statues ADA (42 U.S.C. § 12101) (42 U.S.C. §§ 12131-12165). relate to
Amendment VIII supported by Amendment XIV. By the time of riding in the bus
plaintiff was injured and terrorized also terrify. At the time when bus arrived at
CCJ facilities, plaintiff couldn’t walk so asked again for wheelchair and medical
attention, also medicine explaining his disability with refusal by sheriffs
Estelle v. Gamble. 429 U.S. 97 (1976). Plaintiff was discriminated and that was
also premeditated torture to show who is in power, statues ADA
(42 U.S.C. $ 12101) ( 42 U.S.C. §§ 12131-12165). statues Rights of Inmates,
relate to Amendment VIII supported by Amendment XIV. statues Prisoner's
Rights. On coming process plaintiff was explaining to several Cook County
employee’s what happened and what medical condition he has, however nobody
pay attention to complaint, statues Rights of Inmates, statues Prisoner's Rights.
Therefore plaintiff was housing in general population with no medical needs as
well accessibility for disabled person, US. Department Of Justice Article, statues
ADA (42 U.S.C. § 12101) (42 U.S.C. §§ 12131—12165V relate to Amendment VIII
supported by Amendment XIV, Estelle v. Gamble. 429 U.S. 97 (1976).
This implementation by sheriffs and Cook County employee’s was against Judge
Order, where plaintiff should be located in Cermak Memorial Hospital for his
6

period of incarceration what never occurred, affirm by Judges Order from Court of
Appeals. That is typical practices by state employee’s to discriminate, torture,
terrorize and taking advance on disable persons and all inmates,
Case 07-cv-4369 United District Court for Northern District of Illinois.

IX. REASONS FOR GRANTING THE WRIT
In the process of litigation as pro se Judge ruled out always of the defendants
favor (Bias). On May 1-2017 (Doc# 100) defendants reported to the court that
plaintiff deposition will take place on May 19-2017. The Horwitz Law firm initiate
complain in Northern District of Illinois, then later stop cooperated with Plaintiff,
not giving any documents and not corresponding with him. Plaintiff didn’t have
any other choice, but only to continue discovery. On deposition date plaintiff
prepared motion with detail instruction what will be need (video tape, name of the
sheriffs, paper documentation from court and transportation, also intake video and
documents from the time plaintiff was incarcerated), for further continuation (hand
delivered to Mr. Thomas E. Cargie, cook county state Attorney). After plaintiff
deposition he met with defendant attorney Mr. Thomas E. Cargie, who offers $500
(Amendment VII supported bv Amendment XIV apply) to withdraw from the case,
stated that as Pro se plaintiff doesn’t have slightly chances to win this case in
7

district court, as well in Appeals Court. On May 26-2017 (Doc# 101) defendants
reported to judge that plaintiff has propounded additional discovery in open court
with instruction, also intends to the video deposition of defendants, On July 6-2017
(Doc #102) plaintiff reported to judge inadequate response to discovery and
defendants still not fulfill with plaintiff request. On Aug 11-2017 (Doc #105)
“defendant’ s attorney withdrawal substitution of counsel by tricky maneuver and
replayed that are so confuse, also lied that they don’t have any video tapes and
cannot produce the evidence “additional safeguards”. On Aug 14-2017 (Doc #106,
#107) plaintiff filed motion to compel. On Aug 17-2017 (Doc #108) judge denied
plaintiff motion to compel by defendants (Bias).
Despite to order from United State of Appeals for Seven Circuit to avoid erroneous
deprivation of the right this Court should to clarify if all prestige high-ranking and
very influential constitutional rights, statue, US code Department of Justice and
ADA statue were put into effect. Court of Appeal accepts revive the case and find
that defendant broke the principal rules not adopting Judge Order decision, but still
refuse plaintiff for jury trial, Amendment VII supported by Amendment XIV.
Judges from the same court stated “We have agreed to decide the case without oral
argument because the briefs and record adequately present the facts and legal
b.

arguments, and oral argument would not significantly aid the court” (Bias). The
merit of this case is the defendants deliberately and knowingly ignored plaintiff
8

Nothing changing the facts, that knowingly defendants violate the entire Civil
Rights Act, Constitutional Rights and US Codes, by not providing Medical Care
for disable plaintiff. Entire staff, sheriffs, Cook County employees, was informed
verbally by plaintiff at same time begging for help. This is core argument on the
merits to litigate this complain law suit. Judge from district court concluded that
“defendants have been confused” (Bias). There is no other authority who may
enforce that by own concept or action. The Judges in this case can’t implement any
excuses for defendants; at same time they agree that defendants broke ordinances
(judge from district court stated “perhaps they could do better job”) Bias. Judges
Bias in district court by denying plaintiff to video deposition and other documents
of defendants, resulted that plaintiff couldn’t have proper solid evidence, to
presented arguments of the wrongdoing in this litigation.
The Court of Appeals’ erroneous decision circumvents premise, effectively
permitting to discriminate, torturer, cruel and unusual punishments, also
unnecessary pain (by city officials or county, or at state level) for all disables
peoples. There is no room for any errors concerning humans live or health.
This case presents this court with opportunity to clarify “initiation” standards in
the face of law on each level official who violate those principals and core of those
Rules and Constitution Rights, what are the pillars of this Republic. Absent
intervention by this court, the United States Court of Appeals for the Seventh
10

Circuit published decision will work to undermine the carefully-crafted procedural
safeguards that this Court has spent the past several decades developing.

X.

CONCLUSION

The essential core and undeniable grounds for which this appeal is presented are:
The judicial orders were not executed and carried by the defendants (Sheriff) as
ordered by the Court.
For foregoing reasons, Plaintiff respectfully requests that this Court issue a
writ of certiorari to review the judgment of the United States Court of Appeals for
the Seventh Circuit.

Dated this August 20 day 2020
Respectfully Submitted by Plaintiff Pro se

Cezary WojciK

11

XI. APPENDIX

Appendix 1 (App)

Notice of Issuance of Mandate

Appendix 2 (App)

Order of Court of Appeals Denying Rehearing

Appendix 3 (App)

Decision of Court of Appeals

Appendix 4 (App)

Brief of Plaintiff-Appellant

Appendix 5 (App)

Cases, Statues, U.S. Codes, and Constitutional Provision

12

